Audit of USAID/REDSO/ESA’s Management of U.S.
Personal Services Contractors
Audit Report No. 4-623-04-005-P
March 15, 2004




            PRETORIA, SOUTH AFRICA
March 15, 2004


MEMORANDUM
FOR:           USAID/REDSO/ESA Regional Director, Andrew Sisson

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/REDSO/ESA’s Management of Personal Services
               Contractors (Report No. 4-623-04-005-P)

This memorandum is our report on the subject audit. It finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report has one recommendation. In response to the draft report, USAID
Regional Economic Development Services Office for East and Southern Africa
(USAID/REDSO/ESA) concurred with the recommendation and approved and
implemented a corrective action plan to address our concerns. Therefore, we
consider that final action has been taken on the recommendation.

I appreciate the cooperation and courtesy extended to my staff throughout the
audit.
[This page intentionally left blank.]
           Summary of Results ...................................................................................5
Table of
Contents   Background ................................................................................................5

           Audit Objectives.........................................................................................7

           Audit Findings............................................................................................7

                     Did USAID/REDSO/ESA determine its requirements for U.S.
                     personal services contractors in accordance with selected USAID
                     policies and procedures? ................................................................7

                     Did USAID/REDSO/ESA award U.S. personal services contracts
                     in accordance with selected USAID policies and procedures? ......9

                            All USPSC Files Need to Contain Evidence of Grade-level
                            Reviews.................................................................................10

           Management Comments and our Evaluation ...........................................12

           Appendix I: Scope and Methodology.......................................................13

           Appendix II: Management Comments .....................................................15




                                                                                                                          3
[This page intentionally left blank.]




                                        4
Summary of   The Regional Inspector General/Pretoria conducted this audit to determine
Results      whether USAID’s Regional Economic Development Services Office for East and
             Southern Africa (USAID/REDSO/ESA) (1) determined its requirement for U.S.
             personal services contractors in accordance with USAID policies and procedures,
             and (2) awarded U.S. personal services contracts in accordance with selected
             USAID policies and procedures. (See pages 6-7.)

             The audit found that the Mission has determined its requirements for U.S. personal
             services contractors (USPSCs) in accordance with USAID policies and
             procedures. USAID/REDSO/ESA has used USPSCs as an integral part of its
             workforce to supplement its limited number of U.S. direct hires, as well as to meet
             the Mission’s increased responsibilities. USPSCs have been used to fill positions
             that require technical skills along with experience. When possible, the Mission
             tries to use locally hired USPSCs because the cost is less than using
             internationally recruited USPSCs. However, Americans in the local USPSC labor
             pool often lack training in highly technical areas and thus internationally recruited
             USPSCs are hired. (See pages 7-8.)

             The audit also found that USAID/REDSO/ESA awarded its contracts for USPSCs
             in accordance with selected USAID policies and procedures for ensuring full and
             open competition and for establishing salaries and fringe benefits. However, the
             Mission had not taken action to ensure that the required grade-level reviews were
             performed for all USPSC positions and that the results of the reviews were
             included in the USPSC contract files. (See pages 9-11.)

             This report contains one recommendation to help USAID/REDSO/ESA improve
             its management of USPSCs. (See page 11).

             In response to the draft report, USAID/REDSO/ESA concurred with the
             recommendation. The Mission has modified the USPSC procurement checklist
             and now requires documentation for a grade level-review or position classification
             to be kept in the USPSC contract files. A separate tab has also been included in
             each USPSC file to attach documentation. Finally, the Mission recently approved
             and implemented a process to grade, classify, and set the market value of personal
             services contractor positions. Therefore, we consider that a management decision
             has been reached and that final action has been taken. (See page 12).


Background   The USAID Regional Economic Development Services Office for East and
             Southern Africa (USAID/REDSO/ESA) is co-located with USAID/Kenya in
             Nairobi, Kenya. USAID/REDSO/ESA has three mandates:

             •   Enhancing east and southern Africa’s institutional capacity to achieve food
                 security, better contain and prevent conflict, and improve health systems.



                                                                                                5
•   Providing technical and support services to other USAID bilateral and Non-
    Presence Country (NPC) programs in the region.

•   Managing NPC programs in Somalia, Burundi, and Djibouti.

In order to accomplish its mandates, USAID/REDSO/ESA uses several workforce
categories. As of September 30, 2003, USAID/REDSO/ESA reported that its
staffing of 128 individuals included the following workforce categories:

•   82 foreign service national personal services contractors.

•   20 U.S. personal services contractors (USPSCs)—this included 18 USPSCs
    hired internationally and 2 USPSC hired locally.1

•   18 U.S. direct hires.

•   8 staff working under miscellaneous categories—this included individuals
    working as Fellows, Participating Agency Service Agreements staff, a Third
    Country National, and Technical Advisors in AIDS, Child Survival, and
    Population.2

The risk associated with being located in Nairobi, Kenya has been a challenge for
USAID/REDSO/ESA. On May 16, 2003, the United States Department of State
(DOS) issued a travel warning because of increased security concerns in Kenya
based on indications of terrorist threats in the region aimed at American and western
interests. DOS authorized the voluntary departure of family members and non-
emergency personnel at the U.S. Embassy in Kenya. USAID/REDSO/ESA staff
and their families were part of this authorized departure. On September 25, 2003, a
DOS travel warning noted that the authorized departure of non-emergency
employees and family members was rescinded, but the warning also said that
terrorist threats continue against Americans. Concerns of terrorist actions against
American interests in Kenya are not new. On August 7, 1998, the United States
Embassy in Nairobi was destroyed by terrorists resulting in a large number of human
casualties.

This audit includes 19 USPSCs with active contracts for the audit period of October
1, 2002 to November 25, 2003.




1
 During this audit USAID/Sudan became a Mission; this number includes staff from that Mission
which were excluded from the audit. The audit also reviewed USAID/REDSO/ESA files for staff
assigned to Burundi and Djibouti which were not included in the September 2003 report.
2
 AIDS refers to Acquired Immune Deficiency Syndrome.


                                                                                           6
Audit            This audit was conducted at USAID’s Regional Economic Development Services
Objectives       Office for East and Southern Africa (USAID/REDSO/ESA) as part of a
                 worldwide effort to review USAID’s management of U.S. personal services
                 contractors. The audit was designed to answer the following questions relating to
                 the management of USPSCs:

                 •   Did USAID/REDSO/ESA determine its requirement for U.S. personal
                     services contractors in accordance with USAID policies and procedures?

                 •   Did USAID/REDSO/ESA award U.S. personal services contracts in
                     accordance with selected USAID policies and procedures?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   Did USAID/REDSO/ESA determine its requirements for U.S. personal services
                 contractors in accordance with selected USAID policies and procedures?

                 The audit found that USAID’s Regional Economic Development Services Office
                 for East and Southern Africa (USAID/REDSO/ESA) determined its requirements
                 for U.S. personal services contractors (USPSCs) in accordance with USAID
                 policies and procedures.

                 These policies and procedures are contained in USAID’s Automative Directives
                 System (ADS) Series 400 Interim Update #2, which provides USAID managers
                 guidance on the appropriate roles and responsibilities of USPSCs and other
                 employment mechanisms.3 This guidance states that when it is determined that a
                 position must be filled by a U.S. citizen, the first option for filling it should be
                 through the assignment of a direct hire employee. The responsibility for
                 managing the core business areas and basic work of the Agency lies with U.S.
                 direct hire (USDH) employees. The guidance recognizes that to augment and
                 facilitate the efforts of the USDH workforce in meeting the objectives of the
                 Agency, duties and responsibilities need to be assigned and authorities delegated
                 to other types of employees and non-direct hire staff. The guidance provides for
                 using USPSCs when USDHs or re-employed annuitants are not available to fulfill
                 a permanent staffing requirement.4

                 USAID/REDSO/ESA is allocated a set number of USDH positions by
                 USAID/Washington. Mission management has used these USDHs to staff
                 important positions in the Mission, such as Regional Mission Director, Deputy
                 Regional Director, Comptroller, Legal Officers, Contracting Officers, and
                 Development Officer. Lacking its own Executive Officer, the Mission utilizes the
                 3
                  This is entitled “Appropriate Use and Funding of USAID’s Non-Direct Hire Workforce,”
                 effective September 18, 1995.
                 4
                  Re-employed annuitants are Agency retirees who have limited direct hire appointments.


                                                                                                     7
services of the Executive Officer from USAID/Kenya. By similar arrangement,
USAID/REDSO/ESA provides contracting services for internationally recruited
USPSC positions for USAID/Kenya.

Mission officials noted that the Mission’s USDH staffing levels had decreased
over the last ten years (from 26 to 18), while the Mission’s responsibilities had
increased in managing non-presence countries and regional programs. Faced with
this limited number of USDHs, the Mission has been using USPSCs to
supplement its staffing.5 A senior management official noted that some positions
have inherent risks and that a USDH will be used for such positions. However,
when a USDH is not available to staff such positions, a USPSC will be used. For
instance, if a USDH is not available to manage non-presence country programs, a
USPSC will be used.6 When possible, the Mission will try to use locally hired
USPSCs because they cost less than internationally recruited USPSCs. The local
USPSC labor pool has U.S. citizens who are educated and trained, but this labor
pool does not have many individuals with highly technical backgrounds.
Therefore, when technical skills and experience are needed to fill a position, an
internationally recruited USPSC will be used.

Below are two examples of important positions at USAID/REDO/ESA that are
being filled by USPSCs.

    •   A USPSC who had the requisite conflict management skills was selected
        to lead the Regional Conflict Management and Governance group when
        no USDHs with the necessary skills were available. The USPSC also had
        USAID experience, having previously retired from USAID.

    •   A coordinator with highly developed skills to work in the Population and
        Health group was needed to work on important issues related to orphans,
        Acquired Immune Deficiency Syndrome, and victims of torture. A
        USPSC with prior USAID experience was wanted for this position. The
        USPSC selected had a Ph.D. in counseling and experience in conflict
        areas, along with a USAID field perspective.

A senior Mission official said that the concerns over possible terrorist actions in
Kenya are constraining the Mission’s ability to staff positions with U.S. citizens.
According to this official, the U.S. Ambassador to Kenya does not want to
increase the number of Americans working for the Mission, whether they be
USDHs or USPSCs. Furthermore, concerns about terrorism are having a negative

5
 Foreign service nationals have also been used for this purpose.
6
 USAID’s Acquisition Regulation, Appendix D, section 4.b.3, states that USPSCs may not (1)
supervise USDH employees of USAID or other U.S. government agencies, (2) be designated as
contracting officers or delegated authority to sign obligating or sub-obligating documents, (3)
communicate a final policy, planning or budget decision of the Agency unless that communication
has been cleared by a USDH, and (4) be delegated the authority to make a final decision on
personnel selections.


                                                                                             8
impact on recruiting Americans for positions at USAID/REDSO/ESA and on staff
morale.

The audit found that USAID/REDSO/ESA determined its requirements for USPSCs
in accordance with USAID policies and procedures. However, the Mission’s ability
to continue using USPSCs to supplement its USDH workforce in the future is in
question. The Mission is experiencing the affects of working in a country where
terrorism continues to be a major concern. USAID/REDSO/ESA may find itself in
the difficult position of trying to fulfill its increasing responsibilities with fewer U.S.
direct hires and USPSCs.

Did USAID/REDSO/ESA award U.S. personal services contracts in
accordance with selected USAID policies and procedures?

USAID/REDSO/ESA awarded its U.S. personal services contracts in accordance
with selected USAID policies and procedures such as those for full and open
competition and for establishing salaries and fringe benefits. However, the audit
also found that documentation for the required grade-level reviews was not
contained in the personnel files for all USPSC positions.

USAID/REDSO/ESA followed USAID policies and procedures for establishing
full and open competition, salaries, and fringe benefits. A review of the
documentation in the contract files indicated that all USPSCs were hired under
full and open competition. The USPSC contract files contained documentation of
several applications received for each position, and identified the number of
qualified candidates. From this group, a minimum number of three candidates
were interviewed (if possible). The audit also found that the USPSC position
salaries were established in accordance with USAID policy, and the files
contained historical salary information on the USPSCs. There was one exception
where a USPSC was contracted without full and open competition. According to
a senior Mission official, the exception was hiring a USPSC for a six-month
contract as the Senior Program Manager for the Djibouti office. This official said
that USAID’s Administrator requested that USAID/REDSO/ESA establish a
USAID presence in Djibouti. Because filling this position with a USDH could
take one year, the USPSC was hired under a six-month contract in order to begin
working as soon as possible. This provided the Mission with the necessary time
to try to bring in a USDH to fill the position. Finally, the audit found that the
USPSCs received the correct benefits to which they were entitled.7

In spite of adhering to proper contracting practices for USPSCs,
USAID/REDSO/ESA still needs to take corrective action to strengthen its
contracting of USPSCs. The Mission’s actions did not ensure that all USPSC
contracts were supported with evidence that the required grade-level reviews were


7
USPSC local hires receive limited benefits. USPSC international hires receive benefits similar to
USDHs.


                                                                                                9
conducted. We are making a recommendation that will address this problem in
the following section.

All USPSC Files Need to Contain
Evidence of Grade-level Reviews

USAID’s Acquisition Regulation (AIDAR) and its Contract Information Bulletin
(CIB) 96-8 require that correct market values be established for USPSC positions
that are to be filled through market analyses or grade-level reviews. This action is
further defined by the CIB to require that all contract files be documented to
indicate that a grade-level review was performed. The audit found that 21 percent
of the USPSC contract files reviewed for USAID/REDSO/ESA lacked
documentation        that    grade-level    reviews     had     been    conducted.
USAID/REDSO/ESA has a process to conduct the reviews and to document this
action in its files. Nevertheless, USAID/REDSO/ESA did not ensure that the
required grade-level reviews were performed for all of its USPSC positions and
that the results of reviews were in the contract files.               In addition,
USAID/REDSO/ESA officials could not explain why some of the files lacked
documentation, since the contracting officers who worked on the contracts in
question are no longer working at the Mission. Without documentation in the
contract files, there exists a risk that USPSC positions are being established at
unrealistic and unreasonable market values.

The Federal Acquisition Regulation and AIDAR govern all direct procurement
performed by USAID. AIDAR, Appendix D, Section 4 (e) (i) states that salaries
for USPSCs shall be based on the market value of the position in the United
States. This requires the Contracting Officer, in coordination with the Technical
Officer, to determine the correct market value (a salary range) for the position
being filled. The market value of the position then becomes the basis, along with
the applicant’s certified salary history, for salary negotiations by the Contracting
Officer. Any position which is determined to be above the General Schedule
(GS)-13 equivalent and which exceeds six months in duration must be classified
by USAID’s Department of Human Resources/Personnel Operations Division
(M/HR/POD). The intent of this requirement is to establish a realistic and
reasonable market value for the position. The final determination regarding the
reasonableness of a salary level rests with the Contracting Officer. Paying
salaries using this method avoids “rank in person” salaries which are in excess of
the value of the position contracted. CIB 96-8 states that “The GS grade
represents the market value of the work to be performed, and the GS salary range
represents agreement within the U.S. Government as to approximately what
USAID should be paying to have that work accomplished. All contract files must
be documented to indicate that a grade-level review was performed, and the
results of that review.”

The audit found that 4 of 19 USPSC contract files (21 percent of the population),
which were active during the scope of the audit, lacked documentation that grade-



                                                                                 10
level reviews were performed. Three of the four USPSC contracts were for GS-
13 and below grades. The other USPSC contract was a GS-14 position that would
have required an M/HR/POD position classification review.

USAID/REDSO/ESA contracting staff had not taken action to ensure that the
required grade-level reviews or position classifications were performed for all
USPSC positions and that the results of such reviews were included in the USPSC
contract files. According to the USAID/REDSO/ESA contracting officials they
have a process, which is not written, to obtain grade-level reviews or position
classifications for all USPSCs and to document this action in the files. However,
they could not explain why some of the files lacked documentation, since the
contracting officers who worked on the contracts in question are no longer
working at the Mission.        When the audit team requested the missing
documentation for the four USPSC contracts, the Mission was unable to provide
the documents or produce evidence that, in those cases, it had obtained a grade
level review or a position classification from M/HR/POD. The audit found that
USAID/REDSO/ESA contract files contained a checklist of many important
documents that need to be kept in the contracting files, but it did not require
documentation for a grade-level review or position classification.

Without documentation that position grade-level reviews have been conducted for
all USPSC positions, there exists a risk that USPSC positions are being
established at unrealistic and unreasonable market values. The intent of AIDAR
Appendix D is to avoid paying “rank in person salaries” which would be in excess
of the value of the job being contracted.

Although USAID/REDSO/ESA has a process in place to ensure that contracts for its
USPSCs are in compliance with Federal and USAID contracting requirements, this
one area needs improvement. The grade-level review is important because it
establishes the basis for USPSC salaries. Therefore, we are making the following
recommendation.

       Recommendation No. 1: We recommend that USAID/REDSO/ESA
       develop and implement a system to ensure that its contracting officers
       execute U.S. personal services contracts only after a grade-level
       review has been conducted and documented in the contract file. As
       part of the system, we suggest that the current checklist used in the
       U.S. personal services contract files be modified to help achieve this
       purpose.




                                                                              11
Management   In response to our draft report, USAID/REDSO/ESA management concurred with
Comments     Recommendation No. 1. The Mission also approved and implemented a
             corrective action plan to address the recommendation. Therefore, we consider that
and our
             a management decision has been reached and that final action has been taken.
Evaluation




                                                                                           12
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. This audit is part of a
              worldwide audit led by the Office of Inspector General’s Performance Audits
              Division in Washington, D.C. The audit was designed to answer the following
              questions:

              1. Did USAID/REDSO/ESA determine its requirements for U.S. personal
                 services contractors in accordance with USAID policies and procedures?

              2. Did USAID/REDSO/ESA award U.S. personal services contracts in
                 accordance with selected USAID policies and procedures?

              The audit period included U.S. personal services contracts (USPSC) that were
              active from October 1, 2002 through November 25, 2003. In planning and
              performing the audit, we tested and assessed significant management controls
              related to the Mission’s awarding of USPSC contracts. In this effort, we tested for
              full and open competition for all 19 USPSC contracts that had been awarded.
              Further, we assessed the management controls used to establish salaries and
              benefits. Finally, we determined whether subsequent annual salary increases were
              in accordance with the contracts. The contracting officer is the significant
              management control in overseeing these three areas.

              The types of evidence examined during the audit included—but were not limited
              to—the Mission’s Annual Report, Strategic Plan, staffing pattern, and relevant
              documents contained in the USPSC contract files. We did not review USPSC
              contract files from USAID/Sudan as it was outside the scope of the audit. We also
              reviewed the USPSC contract files for Burundi, Djibouti, and Somalia which were
              the responsibility of USAID/REDSO/ESA. In addition, we interviewed Mission
              officials from USAID/REDSO/ESA.

              The audit was conducted at USAID/REDSO/ESA in Nairobi, Kenya from
              November 13, 2003 to November 25, 2003.

              Methodology

              In order to answer the first objective, we reviewed USAID/REDSO/ESA’s
              Strategic Plan for Fiscal Years 2001-2005. We also reviewed the Mission’s
              Fiscal Year 2003 Annual Report. In addition, we analyzed the Mission’s staffing
              pattern as of September 30, 2003. Finally, interviews were conducted with
              USAID/REDSO/ESA officials to determine how staffing decisions were made for
              USPSCs and the basis for using this workforce category.




                                                                                             13
To answer the second objective, we reviewed the USPSC contracting files to
determine if they included sufficient documentation to indicate compliance with
USAID policies and procedures. The files included negotiation memos, contracts,
solicitations, and the Technical Evaluation Memorandums, which showed full and
open competition in awarding the contracts, salary histories, benefits, and the basis
for establishing salaries. In reviewing annual salary increases, we established a
materiality threshold of 1 percent (+ or –) for variances that occurred between the
General Schedule Salary Table and the USPSCs’ pay increases. When variances
occurred, we met with an official from the Controller’s office to identify why the
variances occurred. Finally, when important documents could not be found in the
USPSC contract files, we notified USAID/REDSO/ESA staff and requested that
they locate the missing documentation and provide it to us.




                                                                                  14
                                                                                              Appendix II


Management
Comments



                                               MEMORANDUM

             Date:           March 8, 2004

             From:           Gerald Cashion, Acting Regional Director, /s/
                             USAID/REDSO/ESA

             To:             Jay Rollins, Regional Inspector General/Pretoria

             Subject:        Response to Audit of USAID/REDO/ESA’s Management of Personal Service
                             Contracts Audit Draft Audit Report No. 4-623-04-xxx-P,

             Please find below USAID/REDSO/ESA’s response to Recommendation No. 1.

                        Recommendation No. 1
                        We recommend that USAID/REDSO/ESA develop and implement a system to
                        ensure that it’s contracting officers execute U.S. personal services contracts only
                        after a grade-level review has been conducted and documented in the contract
                        file. As part of the system, we suggest that the current checklist used in the U.S.
                        personal services contract files be modified to help achieve this purpose.

             USAID/REDSO/ESA agrees with RIG/Pretoria findings and the recommendation made. The
             USPSC procurement checklist has now been modified and requires documentation for a grade
             level-review or position classification among many important documents that need to be kept in
             the USPSC contract file. A separate tab has also been included in each USPSC file to which the
             documentation shall be attached. In addition, the USAID/REDSO/ESA process currently in
             place to ensure grade-level reviews or position classification has now been documented in an
             action memo, dated February 13, 2004. A copy of this memo is attached for your information.
             These actions will bring USAID/REDO/ESA in full compliance with Federal and USAID
             contracting requirements in ensuring that USPSC positions are being established at realistic and
             reasonable market values.

             Based on the above described final actions taken by USAID/REDSO/ESA, we request that
             Recommendation No.1 of the subject draft audit report be closed upon issuance of final report.

             Thank you for your cooperation.




                                                                                                          15
                                      MEMORANDUM
 ACTION MEMORANDUM FOR THE "HEAD OF THE CONTRACTING ACTIVITY"

From:    Gary Juste, Director, Regional Acquisition and Assistance Office, USAID/REDSO/ESA
         /s/

Subject: Grade Review and Position Classification process for all Personal Services Contracts

Date: February 13, 2004

Action: Approval of the process to ensure the required grade level reviews or position
classifications are performed for all Personal Services Contract positions and are included in the
contract files.

Discussion: The process shall include the establishment of clear procedures for grading,
classifying and setting the market value of PSC positions.

1. Once an office determines a need for a PSC position, it will prepare a position
description/statement of work (SOW) and make a recommendation for a grade based on the duties
of the incumbent.

2. The position description/SOW will be provided to the Human Resources Section/ Executive
Office for classification and final determination of the appropriate grade. The grade will provide
the salary range which then constitutes the position’s market value.

3. The determination will be attached to the MAARD and submitted to Acquisition and
Assistance office to be contracted.

4. Upon selection of a candidate, the Contracting Officer will negotiate a salary based on salary
history within the range of the grade of the classified position.

5. The documentation for the above process will be included in all PSC contract files.

Recommendation

It is recommended that you approve this process

                                    Approved: Gerald Cashion, Acting Regional Director /s/
                                    Date: March 8, 2004
Clearances:
Executive Officer, Tom Ray /s/
Controller, Rashmi Amin /s/




                                                                                                 16
